TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                 Significant Progress Was Made in Achieving
                    Compliance With the Federal Financial
                 Management Improvement Act, but Unpaid
                 Assessments Remain a Material Weakness


                                         August 29, 2013

                              Reference Number: 2013-10-091




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number / 202-622-6500
 E-mail Address / TIGTACommunications@tigta.treas.gov
 Website        / http://www.treasury.gov/tigta
                                                      HIGHLIGHTS


SIGNIFICANT PROGRESS WAS MADE IN                         significant deficiency during the Fiscal
ACHIEVING COMPLIANCE WITH THE                            Year 2012 financial statement audit, and the IRS
FEDERAL FINANCIAL MANAGEMENT                             removed it from the December 31, 2012,
IMPROVEMENT ACT, BUT UNPAID                              remediation plan. This material weakness was
                                                         initially identified in the June 1993 Government
ASSESSMENTS REMAIN A MATERIAL
                                                         Accountability Office report. In addition, the IRS
WEAKNESS                                                 met all intermediate target dates established in
                                                         its remediation plan.

Highlights                                               However, the material weaknesses related to
                                                         unpaid assessments remain. In a previous
Final Report issued on August 29, 2013                   report, TIGTA recommended that the IRS
                                                         determine whether the planned November 2014
Highlights of Reference Number: 2013-10-091              implementation of a key system, the Customer
to the Internal Revenue Service Chief Financial          Account Data Engine 2, will fully address the
Officer.                                                 unpaid assessments material weakness, and
                                                         TIGTA recommended that the IRS update future
IMPACT ON TAXPAYERS                                      remediation plans with a more accurate
                                                         implementation date, if necessary. IRS
The Federal Financial Management
                                                         management agreed with this recommendation
Improvement Act (FFMIA) remediation plan is a
                                                         and plans to reassess the November 2014
critical part of the IRS’s efforts to bring its
                                                         closing date for this material weakness once the
financial management systems into compliance
                                                         scope for the Customer Account Data Engine 2
with the FFMIA and to provide reliable and
                                                         is determined. As a result, TIGTA will continue
timely financial data. Overall, the IRS still faces
                                                         to monitor the IRS’s progress in achieving
challenges in its efforts to comply with the
                                                         compliance with the FFMIA.
FFMIA. Complete and reliable financial
information is critical to the IRS’s ability to          WHAT TIGTA RECOMMENDED
accurately report on the results of its operations
to both internal and external stakeholders,              Although TIGTA made no recommendations in
including taxpayers.                                     this report, IRS officials were provided an
                                                         opportunity to review the draft report. IRS
WHY TIGTA DID THE AUDIT                                  management did not provide a formal response
                                                         but agreed with the facts and conclusions
The overall objectives of this review were to
                                                         presented.
report to Congress, as required by the FFMIA,
any instances of and reasons for missed
intermediate target dates established in the
IRS’s Fiscal Year 2012 and first quarter Fiscal
Year 2013 FFMIA remediation plans, determine
whether the IRS has taken adequate corrective
actions on prior audit findings related to the
plan, and document the history of the unpaid
assessments material weakness that has been
noted in IRS financial statements for more than
a decade.
WHAT TIGTA FOUND
The IRS made significant progress in addressing
previously identified remediation plan material
weaknesses. For example, the Government
Accountability Office reported the downgrade of
the information security material weakness to a
                                               DEPARTMENT OF THE TREASURY
                                                    WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                               August 29, 2013


 MEMORANDUM FOR CHIEF FINANCIAL OFFICER


 FROM:                           Michael E. McKenney
                                 Acting Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – Significant Progress Was Made in Achieving
                                 Compliance With the Federal Financial Management Improvement
                                 Act, but Unpaid Assessments Remain a Material Weakness
                                 (Audit # 201310020)

 This report presents the results of our review to report to Congress, as required by the Federal
 Financial Management Improvement Act (FFMIA),1 any instances of and reasons for missed
 intermediate target dates established in the Internal Revenue Service’s (IRS) Fiscal Year 2012
 and first quarter Fiscal Year 2013 FFMIA remediation plans, determine whether the IRS has
 taken adequate corrective actions on our prior year’s audit findings related to the FFMIA
 remediation plan, and document the history of the unpaid assessments material weakness that has
 been noted in the IRS’s financial statements for more than a decade. This review is included in
 our Fiscal Year 2013 Annual Audit Plan and addresses the major management challenge area of
 Achieving Program Efficiencies and Cost Savings.
 Although TIGTA made no recommendations in this report, IRS officials were provided an
 opportunity to review the draft report. IRS management did not provide a formal response but
 agreed with the facts and conclusions presented.
 If you have any questions, please contact me or Gregory D. Kutz, Assistant Inspector General for
 Audit (Management Services and Exempt Organizations).




 1
     Pub. L. No. 104-208, 110 Stat. 3009.
                    Significant Progress Was Made in Achieving Compliance With the
                      Federal Financial Management Improvement Act, but Unpaid
                                Assessments Remain a Material Weakness




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          No Intermediate Target Dates Were Extended on Open
          Remediation Actions..................................................................................... Page 4
          The Unpaid Assessments Material Weakness Remains ............................... Page 5

Appendices
          Appendix I – Detailed Objectives, Scope, and Methodology ....................... Page 7
          Appendix II – Major Contributors to This Report ........................................ Page 9
          Appendix III – Report Distribution List ....................................................... Page 10
         Significant Progress Was Made in Achieving Compliance With the
           Federal Financial Management Improvement Act, but Unpaid
                     Assessments Remain a Material Weakness




                         Abbreviations

CADE 2             Customer Account Data Engine 2
FFMIA              Federal Financial Management Improvement Act
GAO                Government Accountability Office
IRS                Internal Revenue Service
                Significant Progress Was Made in Achieving Compliance With the
                  Federal Financial Management Improvement Act, but Unpaid
                            Assessments Remain a Material Weakness




                                         Background

The Federal Financial Management Improvement Act (FFMIA) of 19961 was established to
advance Federal financial management by ensuring that
Federal financial management systems provide accurate,
                                                              As of May 2013, the Government
reliable, and timely financial management information to the
                                                             Accountability Office continued to
Government’s managers. Further, the Act required that this     report that improvements are
disclosure be done on a basis that is uniform across the          needed to enhance the
Federal Government from year to year by consistently using      Internal Revenue Service’s
professionally accepted accounting standards. Specifically,          internal controls.
FFMIA Section 803 (a) requires each agency to implement
and maintain systems that comply substantially with:
       Federal Government financial management systems requirements.
       Applicable Federal Government accounting standards.
       The United States Government Standard General Ledger2 at the transaction level.
The FFMIA also required financial statement auditors3 to report on agency compliance with the
three stated requirements as part of financial statement audit reports, and agency heads are
required to determine, based on the audit report and other information, whether their financial
management systems comply with FFMIA requirements. If the agency does not comply, the
agency is required to develop remediation plans that describe the resources, remedies, and
intermediate target dates for achieving compliance, and file the plans with the Office of
Management and Budget. In addition, Section 804 (b) requires that the agency Inspector General
shall report to Congress instances and reasons when an agency has not met the intermediate
target dates established in the remediation plan.
As of May 2013, the Government Accountability Office (GAO) continues to report4 that
improvements are needed to enhance the Internal Revenue Service’s (IRS) internal controls.
Because the GAO has reported noncompliance with the requirements of the FFMIA, the IRS has
been required to prepare and maintain a remediation plan.



1
  Pub. L. No. 104-208, 110 Stat. 3009.
2
  Provides a uniform Chart of Accounts and technical guidance to be used in standardizing Federal agency
accounting.
3
  The Government Accountability Office is responsible for auditing the IRS’s financial statements annually.
4
  GAO, GAO-13-420R, Management Report: Improvements Are Needed to Enhance the Internal Revenue Service’s
Internal Controls (May 13, 2013).
                                                                                                   Page 1
                  Significant Progress Was Made in Achieving Compliance With the
                    Federal Financial Management Improvement Act, but Unpaid
                              Assessments Remain a Material Weakness



Since Calendar Year 1993, the IRS has made substantial efforts to address the unpaid
assessments5 material weakness. In the last 20 years, the IRS has proposed, developed, and
implemented numerous systems in an attempt to address this material weakness. Many of these
systems helped improve the IRS’s ability to more accurately report financial information, but the
overall material weakness remains. Beginning in December 1993,6 the GAO reported on
significant financial management weaknesses that affected the IRS’s ability to account for unpaid
assessments. The GAO found that the IRS was, and still is as of Fiscal Year7 2012, unable to rely
on its general ledger and underlying subsidiary ledgers for tracing reported taxes receivable to
supporting transactions, and is unable to effectively prevent, or detect and correct, errors in taxpayer
accounts. The unpaid assessments material weakness8 affects the IRS’s ability to accurately
quantify the amount of unpaid assessments owed to the IRS.
Over the last 15 years, the IRS has implemented numerous systems, which has resulted in
incremental improvements to its financial management systems. In January 2010, the IRS
implemented a new accounting system, the Redesign Revenue Accounting Control System,
which allowed the IRS to post transactions in compliance with Federal Government
requirements, support traceability for revenue transactions, and further assist the IRS in
becoming compliant with the FFMIA. However, despite system improvements, the IRS does not
believe it will become fully compliant with the FFMIA and address the material weakness
related to unpaid assessments until approximately November 2014, pending successful
implementation of Transition State 2 of the Customer Account Data Engine 2 (CADE 2). In our
Fiscal Year 2012 FFMIA review, we determined that the November 2014 implementation date
was not likely to be met, and IRS management agreed to provide a more realistic date.9
This review was performed at the IRS National Headquarters in the office of the Chief Financial
Officer in Washington, D.C., during the period January through July 2013. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to

5
  An unpaid assessment is a legally enforceable claim against a taxpayer and consists of taxes, penalties, and interest
that have not been collected or abated (a reduction in a tax assessment).
6
  GAO (formerly known as the General Accounting Office), GAO/AIMD-94-22, Financial Management: Important
IRS Revenue Information Is Unavailable or Unreliable (Dec. 12, 1993).
7
  A 12-consecutive-month period ending on the last day of any month. The Federal Government’s fiscal year begins
on October 1 and ends on September 30.
8
  According to the GAO, a material weakness is a deficiency, or combination of deficiencies, in internal control such
that there is a reasonable possibility that a material misstatement of the entity’s financial statements will not be
prevented, or detected and corrected, on a timely basis. A significant deficiency is a deficiency, or combination of
deficiencies, in internal control that is less severe than a material weakness, yet important enough to merit attention
by those charged with governance. A deficiency in internal control exists when the design or operation of a control
does not allow management or employees, in the normal course of performing their assigned functions, to prevent,
or detect and correct, misstatements on a timely basis.
9
  Treasury Inspector General for Tax Administration, Ref. No. 2012-10-069, The Remediation Plan Still Does Not
Contain All the Necessary Actions to Address the Unpaid Assessments (Jul. 2012).
                                                                                                              Page 2
               Significant Progress Was Made in Achieving Compliance With the
                 Federal Financial Management Improvement Act, but Unpaid
                           Assessments Remain a Material Weakness



provide a reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives. Detailed information on our audit objectives, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




                                                                                          Page 3
                 Significant Progress Was Made in Achieving Compliance With the
                   Federal Financial Management Improvement Act, but Unpaid
                             Assessments Remain a Material Weakness




                                     Results of Review

The IRS made significant progress to address previously identified remediation plan material
weaknesses. For example, the GAO reported the downgrade of the information security material
weakness to a significant deficiency during the Fiscal Year 2012 financial statement audit, and
the IRS removed it from the December 31, 2012, remediation plan. This deficiency was first
identified in the June 1993 GAO report.10 This was one of two material weaknesses that resulted
in the IRS not being in compliance with the FFMIA. However, the IRS continues to face
challenges in mitigating the unpaid assessments material weakness. As we previously reported,
the IRS has not included any specific details related to the CADE 2 in its remediation plans.11
Because the IRS has indicated that the CADE 2 is the key piece of its strategy to address its
unpaid assessments material weakness associated with individual accounts, we continue to
believe that CADE 2 remediation plan actions and cost estimates should be included in the
remediation plan. The IRS expects that once the CADE 2 Transition State 2 is fully
implemented and the financial systems have been fully leveraged with all available information,
this material weakness will be closed. Until the IRS updates its FFMIA remediation plan with
sufficient actions to address the unpaid assessments material weakness, we will be unable to
assess its overall progress in resolving the unpaid assessments material weakness.

No Intermediate Target Dates Were Extended on Open Remediation
Actions
We determined that the IRS’s December 31, 2012, FFMIA remediation plan was consistent with
GAO recommendations from prior IRS financial audits and related financial management
reports. In its December 31, 2012, remediation plan, the IRS reported that it completed two
remediation actions and removed 11 actions associated with the information security material
weakness which was downgraded, leaving seven open remediation actions. All of these open
actions were associated with the unpaid assessments material weakness.
Each of the seven open remediation actions had an intermediate target date that extended more
than three years from the initial determination that IRS financial management systems were not
in substantial compliance with the FFMIA. As required, the IRS obtained concurrence from the
Office of Management and Budget to extend corrective actions beyond the three-year limitation.


10
   GAO (formerly known as the General Accounting Office), GAO/AIMD-93-2, Examination of IRS’ Fiscal Year
1992 Financial Statements (June 30, 1993).
11
   Treasury Inspector General for Tax Administration, Ref. No. 2011-10-041, Challenges Continue With Reporting
Complete and Accurate Information in the Federal Financial Management Improvement Act Remediation Plan
(May 2011).
                                                                                                        Page 4
                 Significant Progress Was Made in Achieving Compliance With the
                   Federal Financial Management Improvement Act, but Unpaid
                             Assessments Remain a Material Weakness



Our review of the seven open remediation actions related to the unpaid assessments material
weakness found that the IRS did not miss any intermediate target dates.

The Unpaid Assessments Material Weakness Remains
The IRS continues to not include remediation plan actions or cost estimates for the CADE 2 to
address the material weakness of unpaid assessments associated with individual accounts. As of
December 31, 2012, the Chief Financial Officer is working with IRS business units to determine
when the IRS financial systems12 will begin to be available in the CADE 2 so that actions can be
added to the remediation plan for making changes to the financial systems. According to the
IRS, it expects that the unpaid assessments material weakness will not be closed until changes
are made to financial systems and the CADE 2 Transition State 2 is fully implemented. The IRS
expects to implement the CADE 2 Transition State 2 by November 2014 and, therefore, the IRS
plans to fully address its unpaid assessments material weakness after that date.
Management also stated that the FFMIA remediation plan was created to address the actions
required for IRS financial systems and believes that the CADE 2 is not a financial system; rather,
it is a Business System Modernization project used to modernize the IRS tax system for
individual taxpayer account data. We continue to believe that including additional information
in the remediation plan will increase the likelihood of the IRS addressing the unpaid assessments
material weakness, and we previously recommended that the IRS should include CADE 2
actions in remediation plans.13
In addition, in May 2013, the GAO reported14 that the IRS’s controls over its process for
estimating the balances of Federal taxes receivable and other unpaid assessments were not
effectively implemented to ensure proper accounting classification and dollar amounts. This
deficiency increases the risk that a material misstatement of the IRS’s financial statements may
not be prevented, or detected and corrected, on a timely basis. The GAO noted that the
deficiencies are primarily caused by the IRS’s continued reliance on software applications that
were not designed to provide accurate, complete, and timely transaction level information.
Therefore, the GAO continues to consider the internal control over unpaid assessments a material
weakness.




12
   Custodial Detail Data Base and Redesign Revenue Accounting Control System.
13
   Treasury Inspector General for Tax Administration, Ref. No. 2011-10-041, Challenges Continue With Reporting
Complete and Accurate Information in the Federal Financial Management Improvement Act Remediation Plan
(May 2011).
14
   GAO, GAO-13-420R, Management Report: Improvements Are Needed to Enhance the Internal Revenue
Service’s Internal Controls (May 13, 2013).
                                                                                                        Page 5
                 Significant Progress Was Made in Achieving Compliance With the
                   Federal Financial Management Improvement Act, but Unpaid
                             Assessments Remain a Material Weakness



The Treasury Inspector General for Tax Administration recommended in a previous report15 that
the IRS determine whether the November 2014 implementation of the CADE 2 that fully
addresses the unpaid assessments material weakness is still achievable and update future
remediation plans with a more accurate date, if necessary. IRS management agreed with this
recommendation and plans to reassess the November 2014 closing date for this material
weakness once the scope for the CADE 2 Transition State 2 is determined. In addition,
management informed us they are working toward achieving compliance with the FFMIA and
their goal is to establish a new CADE 2 Transition State 2 implementation date by March 31,
2014. As a result, the Treasury Inspector General for Tax Administration will continue to
monitor the IRS’s progress in achieving compliance with the FFMIA and is not making a
recommendation at this time.




15
  Treasury Inspector General for Tax Administration, Ref. No. 2012-10-069, The Remediation Plan Still Does Not
Contain All the Necessary Actions to Address the Unpaid Assessments Material Weakness (Jul. 2012).
                                                                                                        Page 6
                 Significant Progress Was Made in Achieving Compliance With the
                   Federal Financial Management Improvement Act, but Unpaid
                             Assessments Remain a Material Weakness



                                                                                               Appendix I

        Detailed Objectives, Scope, and Methodology

The overall objectives of this review were to report to Congress, as required by the FFMIA,1 any
instances of and reasons for missed intermediate target dates established in the IRS’s Fiscal
Year2 2012 and first quarter Fiscal Year 2013 FFMIA remediation plans, determine whether the
IRS has taken adequate corrective actions on prior audit findings related to the plan, and
document the history of the unpaid assessments material weakness that has been noted in IRS
financial statements for more than a decade. To accomplish our objectives, we:
I.      Researched the requirements of the FFMIA, including Office of Management and
        Budget and Department of the Treasury guidance for the IRS’s compliance with it.
II.     Determined whether the IRS’s remediation plan was consistent with GAO
        recommendations from prior IRS financial audits and related financial management
        reports.
III.    Determined whether 1) the IRS missed any intermediate target dates established in its
        remediation plan, 2) intermediate target dates were extended without sufficient
        documentation to support the revised dates, and 3) proper approval was obtained for
        remediation actions extending more than three years.
        A. Verified that all remediation actions have intermediate target dates established.
        B. Determined the facts and time frames associated with the existing material weakness
           to document how long the material weakness has been outstanding and the facts
           surrounding remediation actions planned and taken by the IRS since the material
           weakness was first identified.
IV.     Determined whether the IRS had taken adequate corrective actions on prior reported audit
        findings related to the FFMIA remediation plan.
        A. Identified the prior year’s Treasury Inspector General for Tax Administration audit
           findings and corresponding management responses concerning corrective actions that
           should have been completed by the time of this year’s audit.3
        B. Confirmed through discussions and observations that actions had been completed.

1
  Pub. L. No. 104-208, 110 Stat. 3009.
2
  A 12-consecutive-month period ending on the last day of any month. The Federal Government’s fiscal year begins
on October 1 and ends on September 30.
3
  Treasury Inspector General for Tax Administration, Ref. No. 2012-10-069, The Remediation Plan Still Does Not
Contain All the Necessary Actions to Address the Unpaid Assessments Material Weakness (Jul. 2012).
                                                                                                        Page 7
              Significant Progress Was Made in Achieving Compliance With the
                Federal Financial Management Improvement Act, but Unpaid
                          Assessments Remain a Material Weakness



Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objectives: the IRS’s policies, procedures, and
practices for tracking remediation actions implemented due to identified material weaknesses.
We evaluated these controls by interviewing management and reviewing applicable
documentation.




                                                                                         Page 8
              Significant Progress Was Made in Achieving Compliance With the
                Federal Financial Management Improvement Act, but Unpaid
                          Assessments Remain a Material Weakness



                                                                            Appendix II

                Major Contributors to This Report

Gregory D. Kutz, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Alicia P. Mrozowski, Director
Jonathan T. Meyer, Director
Joseph F. Cooney, Audit Manager
Janice M. Pryor, Audit Manager
Ahmed M. Tobaa, Lead Auditor
Mary F. Herberger, Senior Auditor




                                                                                    Page 9
              Significant Progress Was Made in Achieving Compliance With the
                Federal Financial Management Improvement Act, but Unpaid
                          Assessments Remain a Material Weakness



                                                                            Appendix III

                         Report Distribution List

Principal Deputy Commissioner
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Chief Financial Officer OS:CFO
Chief Information Officer OS:CTO:CIO
Associate Chief Financial Officer for Corporate Planning and Internal Controls OS:CFO:CPIC
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Chief Financial Officer OS:CFO
       Chief Technology Officer OS:CTO




                                                                                    Page 10
